PHIL WEISER
Attorney General

RALPH L. CARR
COLORADO JUDICIAL CENTER
1300 Broadway, 10th Floor
Denver, Colorado 80203
Phone (720) 508-6000

NATALIE HANLON LEH
Chief Deputy Attorney General
ERIC R. OLSON
Solicitor General

STATE OF COLORADO
DEPARTMENT OF LAW
September 28, 2020
Scott S. Harris
Clerk of the Court
United States Supreme Court
1 First Street, NE
Washington, D.C. 20543
RE:

Alfredo Juarez, 20-120 — Motion under Supreme Court Rule 30.4 to
Extend the Time to File a Brief in Opposition

Dear Mr. Harris:
This office represents the State of Colorado in the above-captioned case.
Pursuant to the Court’s request of September 15, 2020, our office is required to file a
response to Mr. Juarez’s petition for writ of certiorari on or before October 15, 2020.
Pursuant to Supreme Court Rule 30.4, I write to request a 60-day extension of time,
to and including December 14, 2020, within which to file a brief in opposition.
This extension is necessary for the following reasons. Additional counsel will be
participating in drafting and filing the brief in opposition, and more time is required
to adequately prepare the brief and respond to the issues raised. In addition, counsel
are currently litigating various matters before this Court, the Tenth Circuit Court of
Appeals, the U.S. District Court, the Colorado Supreme Court, and the Colorado
Court of Appeals. Due to briefing and other deadlines in those matters, counsel
requires the extension to ensure adequate time and attention may be paid to the
issues raised in the petition.
Counsel of Record for Petitioner has indicated that Petitioner does not object to the
requested 60-day extension of time.
In compliance with Supreme Court Rule 29, enclosed is a separate proof of service
evidencing service of this Motion on counsel for Petitioner.

Thank you for your attention to this matter.
Sincerely,
FOR THE ATTORNEY GENERAL
Digitally signed by L.
L. Andrew
Andrew Cooper
Date: 2020.09.28
Cooper
17:22:38 -06'00'
/s/ L. Andrew Cooper
L. ANDREW COOPER
Deputy Attorney General
(720) 508-6465
Email: andrew.cooper@coag.gov
Counsel of Record for Respondent

